                                               NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE O F INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

 Case Number: A08050027                                                                     Page 1of 2


        We received notice from a University1 that it had reviewed a n allegation of plagiarism
        and concluded a n investigation was warranted. I n accordance with our practice, we
        deferred our investigation while the University completed its investigation:
        From the University's investigation report, we learned the PI2 was the thesis advisor
        for several students who worked on related research within his group over a period of
        several years with NSF support. One of his students (SA3) wrote his M.S. thesis in
        20014 and then left the PI's group. Another student (SB5) wrote his M.S. thesis in
        20056 and subsequently left the PI's group. A later student (SC7) in the PI's group was
        reading various documents on the previous work of the PI's group, including the theses
        of SA and SB. SC noticed similarities between the theses of SB and SA and reported
        the matter to the university Research Integrity Officer (RIO).
        Based on what it learned from the interviews of SB, SC, and the PI, the investigation
        committee (IC) also requested copies of several of the PI's other students' theses to
        assess the PI's role in his students' thesis preparation.8 After the IC interviewed the
        PI, he provided a written statement with additional information.
        The IC noted a side-by-side comparison of the Introduction and Theory sections of SB's
        2005 thesis showed substantial, unattributed, verbatim copying that exists throughout
        those sections. SB acknowledged he had a copy of SA's thesis, and acknowledged he
        looked a t it to ensure his equations were correct, but he denied intentionally copying
        text from SA's thesis. He claimed the verbatim text arose through the editing process
        between his and the PI's edits. SB said he exchanged hard copies of his draft thesis
        with the PI, who was very particular in his acceptance of words used to describe the
        research.
        The PI said the two theses showed significant overlap and SB should have used other
        words, but he took some of the blame for not checking to see if the text from SA's thesis
        was used verbatim. The PI agreed he heavily edited both SA's and SB's thesis, so it
        was possible he may have re-worked both theses to read the way they do. The PI

             (redacted).
             1
             (redacted).
             2
           3 (redacted).
           4 (redacted).
           5 (redacted).
           6 (redacted).
           7 (redacted).
           8 After reviewing those and other documents, the committee concluded a n allegation of plagiarism
        against another author be conducted. This investigation is proceeding separately.



NSF OIG Form 2 (11/02)
                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

    Case Number: A08-27                                                            Page 2 of 2
I


        acknowledged further responsibility i n his written response i n t h a t he accepted fault
        for encouraging his students to use the wording from prior students (he told students        a



        not to reinvent the wheel, and if suitable language already existed to describe the
        theory and methodology, they should use it) without carefully explaining the need for
        citation and then not checking to determine if the students had used text, figures, or       ,
        equations verbatim, which, he acknowledged, would not be acceptable.
        The IC concluded the probability of t h a t amount of verbatim text in SB's thesis arising
        through editing by two people was small. It noted SB's acknowledgment t h a t he used
        SA's thesis during the preparation of his thesis, and the fact t h a t SB was the sole
        author of his thesis, and concluded he was therefore responsible for the plagiarism,
        although it acknowledged the PI'S advising process contributed to the plagiarism. I t
        concluded the plagiarism was knowing and constituted a significant departure from the
        accepted practices of the relevant research community. The IC voted unanimously in
        support of these conclusions. As a result of its finding, the IC recommended SB's 2005
        M.S. thesis be designated "unapproved and SB be required to revise his thesis in
        accordance with the School of Graduate Studies standards. The IC noted its
        investigation revealed serious flaws i n the mentoring and advising procedures of the
        PI, a department chair and experienced faculty member. I t recommended the Provost
        initiate a university-wide program to promote the responsible conduct of research for
        faculty, staff, and students.
        We accepted the University's report a s accurate and complete and concluded the IC
        followed reasonable procedures. We generally agree with the IC's conclusions, and
        support its decision to maintain the highest ethical standards for itself. We concluded
        the PI'S specially poor mentoring mitigated SB's action. We also conclude the
        University's finding and action requiring SB to correct the research record are
        sufficient to protect NSF's interests. Nonetheless, we are sending SB a warning letter
        with guidance about proper citation practices. Additionally, we are sending the PI a
        letter of admonishment for his poor mentoring practices, which led not only to this
        plagiarism, but additional allegations of plagiarism in his group. Accordingly, this case
        is closed and no further action will be taken.
